-        May 10,2005




     Infrastructure and Environment
     Missile Defense Agency Data Call
     Submissions and Internal Control
     Processes for Base Realignment and
     Closure 2005
     (D-2005-063)




z-    -           Department of Defense
                 Office of Inspector General
      Quality            Integrity         Accountability
 Additional Copies

 To request copies of this report, contact Mr. Rudolf Noordhuizen at (703) 604-8959
 (DSN 664-8959) or Mr. Bruce A. Burton at (703) 604-9071 (DSN 664-9071).

 Suggestions for Future Audits

 To suggest ideas for or to request future audits, contact Audit Followup and
 Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
 Ideas and requests can also be mailed to:

               ODIG-AUD (visit ATTN: AFTS Audit Suggestions)
                   Department of Defense Inspector General
                     400 Army Navy Drive (Room 801)
                         Arlington, VA 22202-4704




Acronyms

BRAC                 Base Realignment and Closure
COBRA                Cost of Base Realignment Actions
DoD OIG              Department of Defense Office of Inspector General
H&SA                 Headquarters and Support Activities
ICP                  Internal Control Plan
JCSG                 Joint Cross-Service Group
JPAT 7               Joint Process Action Team Criterion Number 7
MDA                  Missile Defense Agency
NCR                  National Capital Region
                            INSPECTOR GENERAL
                          DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 222024704




                                                                           May 10,2005


MEMORANDUM FOR DIRECTOR, MISSILE DEFENSE AGENCY
SUBJECT: Report on Missile Defense Agency Data Call Submissions and Internal
         Control Processes for Base Realignment and Closure 2005 (Report
         NO.D-2005-063)

        We are providing this report for,informationand use. No written response to this
report was required, and none was received. Therefore, we are publishing this report in
final form. We performed this audit in response to request from the Under Secretary of
Defense for Acquisition, Technology, and Logistics.
       We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Rudolf Noordhuizen (703) 604-8959 (DSN 664-8959) or Ms. Mary Hoover at
(703) 604-9054 (DSN 664-9054). See Appendix F for the report distribution. The team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                  *%       ' Marv L. Upone
                                     Assistant hspectk General
                               Acquisition Management and Technology
                Department of Defense Office of Inspector General
Report No. D-2005-063                                                           May 10, 2005
   (Project No. D2004-D000AB-0086.000)

        Missile Defense Agency Data Call Submissions and Internal
        Control Processes for Base Realignment and Closure 2005

                                  Executive Summary

Who Should Read This Report and Why? Office of the Secretary of Defense
personnel responsible for deciding the realignment or closure of military installations
based on the Base Realignment and Closure data calls, and Missile Defense Agency
management personnel should read this report. The report discusses the adequacy,
completeness, and integrity of the data provided by Missile Defense Agency to assist the
Secretary of Defense in Base Realignment and Closure 2005 recommendations.

Background. Base Realignment and Closure 2005 is the formal process outlined in
Public Law 101-510, “Defense Base Closure and Realignment Act of 1990,” as amended,
under which the Secretary of Defense may realign or close military installations inside
the United States and its territories. As part of Base Realignment and Closure 2005, the
Under Secretary of Defense for Acquisition, Technology, and Logistics issued,
“Transformation Through Base Realignment and Closure (BRAC 2005) Policy
Memorandum One-Policy, Responsibilities, and Procedures,” April 16, 2003, that
provided for the Department of Defense Office of Inspector General review of the
accuracy of Base Realignment and Closure data and the certification process.

The Base Realignment and Closure 2005 process was mandated for the United States and
its territories and was divided into the following data calls—capacity analysis,
supplemental capacity, military value, Cost of Base Realignment Actions, Joint Process
Action Team Criterion Number 7, and scenario specific. The supplemental capacity,
military value, Cost of Base Realignment Actions, and Joint Process Action Team
Criterion Number 7 data calls are collectively known as the second data call. This report
summarizes issues related to the entire Missile Defense Agency Base Realignment and
Closure 2005 process as of March 17, 2005.

Missile Defense Agency. To counter the threat of ballistic missiles carrying weapons of
mass destruction, the DoD established the Missile Defense Agency to manage and
integrate all missile defense programs and technologies into the Ballistic Missile Defense
System. The mission of the Missile Defense Agency is to develop, test, and prepare for
fielding a missile defense system. The Missile Defense Agency has 33 offices in 5 states
and personnel in 11 locations throughout the world.

Results. We evaluated the validity, integrity, and supporting documentation of Base
Realignment and Closure 2005 data and compliance with the Office of the Secretary of
Defense and Missile Defense Agency internal control plans at six sites for the capacity
analysis data call, one site for the second data call, and one site for the scenario specific
data call (see Appendix A for a list of sites visited). Missile Defense Agency Base
Realignment and Closure 2005 data were generally supported, complete, and reasonable
after corrections were made; the data collection processes generally complied with
applicable internal control plans; and the Missile Defense Agency internal control plan
properly incorporated and supplemented the Office of the Secretary of Defense internal
control plan. Data integrity existed between Missile Defense Agency responses from
their data collection tool and the Office of the Secretary of Defense database. However,
the Missile Defense Agency did not support all responses submitted to Office of the
Secretary of Defense. Twenty-nine capacity analysis responses were partially supported
with documentation, and three scenario specific responses used in three scenario specific
data calls were partially supported with documentation. After our site visit, the Joint
Process Action Team Criterion Number 7 requested that the Missile Defense Agency
change several responses. We did not verify those changes; therefore, the issues related
to those questions may no longer be valid. These issues should not affect the overall
reliability or integrity of the Missile Defense Agency Base Realignment and Closure
2005 process.
Management Comments. We provided a draft of this report on April 19, 2005. No
written response to this report was required, and none was received. Therefore, we are
publishing this report in final form.




                                            ii
Table of Contents

Executive Summary                                                                 i

Background                                                                       1

Objectives                                                                       3

Finding
     Missile Defense Agency Base Realignment and Closure 2005 Data Call
        Submissions and Internal Control Processes                               4

Appendixes
     A.   Scope and Methodology                                                   9
     B.   Capacity Analysis Data Call Questions Reviewed                         14
     C.   Capacity Analysis Data Call Immaterial Partially Supported Responses   18
     D.   Second Data Call Questions Reviewed                                    21
     E.   Prior Coverage                                                         23
     F.   Report Distribution                                                    25
Background
    Base Realignment and Closure (BRAC) 2005. Public Law 101-510, “Defense
    Base Closure and Realignment Act of 1990,” as amended, establishes the
    procedures under which the Secretary of Defense may realign or close military
    installations inside the United States and its territories. The law authorizes the
    establishment of an independent Commission to review the Secretary of Defense
    recommendations for realigning and closing military installations. The Secretary
    of Defense established and chartered the Infrastructure Executive Council and the
    Infrastructure Steering Group as the BRAC 2005 deliberative bodies responsible
    for leadership, direction, and guidance. The Secretary of Defense must submit
    recommendations to the independent Commission by May 16, 2005.

    Joint Cross-Service Groups. A primary objective of BRAC 2005, in addition to
    realigning base structure, is to examine and implement opportunities for greater
    joint activity. The Office of the Secretary of Defense (OSD) established seven
    Joint Cross-Service Groups (JCSGs)-Education and Training, Headquarters and
    Support Activities (H&SA), Industrial, Intelligence, Medical, Supply and Storage,
    and Technical. The JCSGs address issues that affect common business-oriented
    support functions, examine functions in the context of facilities, and develop
    closure and realignment recommendations based on force structure plans of the
    Armed Forces and selection criteria. To analyze the issues, each JCSG developed
    data call questions to obtain information about the functions that they reviewed.

    BRAC Data Calls. The BRAC 2005 data collection process, mandated for the
    United States and its territories, was divided into the following data
    calls - capacity analysis, supplemental capacity, military value, Cost of Base
    Realignment Actions (COBRA), Joint Process Action Team Criterion Number 7
    (JPAT 7), and scenario specific. The supplemental capacity, military value,
    COBRA, and JPAT 7 data calls are collectively known as the second data call.
    The Services, Defense agencies, and Defense-Wide Organizations used either
    automated data collection tools or a manual process to collect data call responses.
    Each data call had a specific purpose as follows.

           •   The capacity analysis data call gathered data on infrastructure, current
               workload, surge requirements, and maximum capacity.

           •   The supplemental capacity data call clarified inconsistent data
               gathered during the initial capacity analysis data call.

           •   The military value data call gathered data on mission requirements,
               land and facilities, mobilization and contingency, and cost and
               manpower.

           •   The COBRA data call gathered data to develop costs, savings, and
               payback (formerly known as return on investments) of proposed
               realignment and closure actions.
                                        1
                    •    The JPAT 7 data call gathered data to assess the community’s ability
                         to support additional forces, missions, and personnel associated with
                         individual scenarios; 1 and

                    •    The scenario specific data call gathered data related to specific
                         scenario conditions for realignment or closure.

           Internal Control Plans (ICPs). The ICPs outlined management controls
           designed to provide accountability for information used in the BRAC 2005
           process. Before the BRAC data calls were released, OSD required the Services,
           Defense agencies, and Defense-Wide Organizations to prepare ICPs that
           incorporated and supplemented the OSD ICP. The OSD ICP was issued in the
           Under Secretary of Defense for Acquisition, Technology, and Logistics’
           memorandum “Transformation Through Base Realignment and Closure (BRAC
           2005) Policy Memorandum One-Policy, Responsibilities, and Procedures,”
           April 16, 2003. To comply with these requirements, the Missile Defense Agency
           (MDA) prepared, “Missile Defense Agency (MDA) 2005 Facility Board Internal
           Control Plan (ICP),” December 24, 2003. For both the capacity analysis data call
           and the second data call, MDA used a modified version of the Army’s on-line
           data collection tool.

           Department of Defense Office of Inspector General (DoD OIG)
           Responsibility. Pursuant to the “Transformation Through Base Realignment and
           Closure (BRAC 2005) Policy Memorandum One-Policy, Responsibilities, and
           Procedures,” April 16, 2003, the DoD OIG provided advice and recommendations
           on ICP development and implementation, reviewed the BRAC data for accuracy,
           and evaluated the certification process. In addition, DoD OIG personnel assisted
           the JCSGs and DoD Components as needed. This report summarizes issues
           related to the MDA BRAC 2005 process.

           MDA. To counter the threat of ballistic missiles carrying weapons of mass
           destruction, the DoD established the MDA to manage and integrate all missile
           defense programs and technologies into the Ballistic Missile Defense System.
           The mission of MDA is to develop, test, and prepare for fielding a missile defense
           system. The MDA has 33 offices in 5 states and MDA personnel in 11 locations
           throughout the world. The MDA BRAC officials are located in the MDA
           National Capital Region (NCR), Washington, D.C. During the capacity analysis
           data call, we visited 6 sites to review responses collected from the 33 major MDA
           offices. During the second and scenario specific data calls, MDA Headquarters
           collected and submitted the BRAC responses. See Appendix B for information
           related to the capacity analysis questions reviewed and Appendix D for
           information related to the second data call questions reviewed.



1
    A description of one or more potential closure or realignment actions identified for formal analysis by
    either a JCSG or a Military Department.
                                                        2
Objectives
    The overall objective of the audit was to evaluate the validity, integrity, and
    supporting documentation of data that MDA collected and submitted for the
    BRAC 2005 process. In addition, we evaluated whether MDA complied with the
    OSD and MDA ICPs. This report is one in a series on data call submissions and
    internal control processes for BRAC 2005. See Appendix A for a discussion of
    the audit scope and methodology related to the objective. See Appendix E for
    prior coverage.




                                       3
           Missile Defense Agency Base Realignment
           and Closure 2005 Data Call Submissions
           and Internal Control Processes
           The responses provided to the BRAC 2005 data calls for MDA sites
           visited were generally supported, complete, and reasonable after
           corrections were made as a result of our site visits. In addition, the MDA
           sites visited generally complied with the ICPs, and the MDA ICP properly
           incorporated and supplemented the OSD ICP. Data integrity existed
           between MDA responses from their data collection tool and the OSD
           database. However, the capacity analysis data call and scenario specific
           data call contained responses that were partially supported. Specifically:

              •   Responses to 29 capacity analysis data call questions at 6 sites
                  were partially supported with documentation.

              •   Responses to 3 scenario specific data calls used information that
                  was partially supported with documentation. Personnel at 2 sites
                  used in 3 scenarios, leases at 2 sites used in 1 scenario, and special
                  space at 2 sites used in 3 scenarios were partially supported with
                  documentation.

           These issues should not affect the overall reliability or integrity of the
           MDA BRAC process.


MDA BRAC 2005 Data Call Submissions
    After we completed our review, the BRAC 2005 data call responses that MDA
    reported were generally supported, complete, and reasonable. After receiving the
    questions, MDA Headquarters targeted specific questions to the 33 major MDA
    offices. During our site visits, we evaluated their validity, integrity, and
    supporting documentation. Specifically, we compared responses to supporting
    documentation and reviewed the “not applicable” responses to determine whether
    they were reasonable and not default responses.

    Capacity Analysis Data Call. After our review, the MDA sites that we reviewed
    for the capacity analysis data call generally provided accurate, reasonable
    responses and support. The MDA Headquarters received 753 capacity analysis
    data call questions from the OSD BRAC office. MDA BRAC officials reviewed
    those questions and selected 86 specific questions to forward to each of the
    33 major MDA offices within the United States. We evaluated the responses and


                                          4
           support at the six MDA sites 2 (see Appendix B for a list of offices visited and
           questions reviewed). We identified responses with inadequate support and
           responses that were inaccurate. In addition, we reviewed each question with a
           “not applicable” response to the data call to determine whether the response was
           reasonable and not a default response. We determined that the “not applicable”
           responses were reasonable. However, as a result of our visits, the MDA sites
           revised their responses and provided the necessary supporting documentation.
           We verified and concurred with the majority of changes. In some cases, MDA
           personnel determined that the original responses were correct although no
           additional supporting documentation was provided. Responses to 29 questions
           were partially supported with documentation. Although there was no
           documentation to fully support the responses, MDA BRAC officials determined
           the responses to be correct. We do not consider the partially supported responses
           to be material. See Appendix C for the list of partially supported responses for
           the capacity analysis data call.

           Second Data Call. After our review, the MDA site reviewed for the second data
           call provided responses that were generally supported, complete, and reasonable.
           We evaluated the responses and support at the MDA Headquarters, Washington,
           D.C., site. The MDA Headquarters site received targeted questions from the
           JCSGs. The MDA BRAC officials reviewed the applicability of the questions
           and further targeted the questions to six MDA sites 3 (see Appendix D for a list of
           sites and questions reviewed). We evaluated the responses and supporting
           documentation at MDA Headquarters where all MDA targeted sites forwarded
           their responses and supporting documentation. All stand-alone facilities and host
           installations including leased facilities answered the JPAT 7 data call questions;
           however, the Alabama responses were provided by Redstone Arsenal, the
           Colorado responses were provided by Schreiver Air Force Base, and the NCR
           responses by Henderson Hall. We did not audit the accuracy or the supporting
           documents for the Alabama, Colorado, or the NCR responses that Redstone
           Arsenal, Schreiver Air Force Base, and Henderson Hall provided to MDA. We
           did not review the COBRA questions because MDA was advised by the COBRA
           point of contact not to respond to those questions even though MDA is located in
           leased facilities. Although contrary to OSD BRAC guidance, the information was
           later obtained as part of the scenario data call. The answers were generally
           supported, complete, and reasonable, with the exception of the following:
               •   H&SA JCSG military value responses for question numbers 1913 and
                   1917 were supported with memorandums for the record. We were unable
                   to verify the accuracy of these responses because no additional supporting
                   documentation existed. In addition, responses to H&SA JCSG military
                   value questions 1907 and 1908 were not verified because we were unable
                   to validate the steps taken to generate those responses.

2
    The six MDA sites visited included the responses from all 33 major MDA offices.
3
    The six sites include Alabama, Alaska, California, Colorado, NCR, and New Mexico.
                                                     5
               •   Technical JCSG military value responses from multiple MDA locations
                   for question numbers 3008 through 3015, 3017, 3018, and 3023 were
                   supported with memorandums for the record. We were unable to verify
                   the accuracy of those responses because no additional documentation
                   existed.

               •   H&SA JCSG supplemental capacity responses for question numbers 4099,
                   4100, 4101, 4102, and 4103 were supported by memorandums for the
                   record. We were unable to verify the accuracy of those responses because
                   no additional documentation existed.

          After our site visit, JPAT 7 requested MDA to revise some of its responses based
          upon new guidance. We did not review the supporting documentation for the
          changed responses.

          Scenario Specific Data Call. After our review, the MDA site that we visited for
          the scenario data call generally provided reasonable responses and adequate
          support. We evaluated the responses and support at the MDA Headquarters,
          Washington, D.C., site. As of March 17, 2005, at the request of the JCSGs, the
          OSD forwarded four scenario specific data calls to MDA Headquarters requesting
          responses from five MDA sites. 4 The four scenario specific data calls included
          two from the H&SA JCSG and two from the Technical JCSG. The JCSGs asked
          MDA to provide the number of personnel occupying each building, leased space
          information, one-time moving costs, and special space requirements for the four
          scenarios. However, we were unable to verify the following information based on
          the documentation provided for the scenario specific data call.

               •   Personnel breakdowns for Alabama and Colorado were partially supported
                   with memorandums for the record which stated that personnel numbers
                   were obtained by physical counts. The Alabama personnel numbers were
                   used in H&SA-0047, TECH-0002, and TECH-0018. The Colorado
                   personnel numbers were used in TECH-0002 and TECH-0018.

               •   Leased space information for Alabama was partially supported with
                   memorandums for the record. The Alabama lease information was used in
                   H&SA-0047.
               •   Special space requirements were partially supported by a memorandum
                   for the record for one Alabama location and by an unreadable floor plan
                   (due to the small size) for the Colorado location. The Alabama special
                   space information was used in H&SA-0047, TECH-0002, and TECH-
                   0018. The Colorado special space information was used in TECH-0002
                   and TECH-0018.



4
    The five MDA sites include Alabama (two sites), Colorado, NCR, and New Mexico.
                                                   6
     No additional documentation was available at the time of the review to support
     the scenario specific data call responses. Based on our review, MDA made
     changes to the scenario specific data call responses. We verified and concurred
     with the changes. MDA BRAC officials resubmitted the corrected scenario
     specific data call responses.


Internal Control Processes
     The site data collection processes for the first data call, second data call, and
     scenario specific data call generally complied with applicable ICPs. The MDA
     ICP properly incorporated and supplemented the OSD ICP.

     We evaluated compliance with MDA ICP at six sites for the capacity analysis
     data call, one site for the second data call, and one site for the scenario specific
     data call. During the capacity analysis data call, we visited six MDA sites that
     included responses from the 33 major MDA offices (see Appendix A for a list of
     sites visited). During the second and scenario specific data calls, we visited the
     MDA Headquarters to evaluate responses from Alabama, Alaska, California,
     Colorado, NCR, and New Mexico. At each site visited, we evaluated the MDA
     BRAC 2005 data collection processes to determine whether they complied with
     OSD and MDA ICPs, whether the MDA ICP incorporated and supplemented the
     OSD ICP, and whether sites completed nondisclosure agreements, marked BRAC
     data, and safeguarded BRAC data.

     Completeness of ICPs. The MDA BRAC 2005 ICP provides a uniform set of
     management controls designed to provide accountability for each sub-element of
     information and analysis used in the BRAC 2005 process. The ICPs established
     the BRAC 2005 responsibilities of MDA organizations and control mechanisms
     to safeguard MDA BRAC information. The ICPs outlined requirements for
     document marking, information and communication controls, public affairs
     guidance, and the MDA data collection plan. Specifically, the ICPs included
     direction on completing nondisclosure agreements, close-hold requirements for
     BRAC information, marking and storing BRAC information, and data
     certification requirements.

     Compliance with ICPs. MDA sites were generally compliant with the ICP
     procedures. The site data collection processes for the capacity analysis, second,
     and scenario specific data calls generally complied with applicable ICPs. During
     the capacity analysis and second data calls, we verified that MDA personnel
     participating in the BRAC process signed nondisclosure agreements, documented
     deliberative meeting minutes, and collected, marked, stored, and maintained data
     in compliance with the OSD and MDA ICPs. During the capacity data call and
     the second data call, we noted minor ICP compliance deficiencies such as not
     signing nondisclosure agreements and inadequate marking of BRAC information.

                                          7
           Each site corrected the deficiencies during our site visit. We consider those
           deficiencies corrected and immaterial.


Data Integrity
           Data integrity 5 existed between the MDA responses from their data collection
           tool and the OSD database. The DoD OIG Data Mining Division reviewed the
           integrity of the data transferred from the MDA data collection tool to the OSD
           database. From the 17,682 responses provided by MDA, the Data Mining
           Division identified the following discrepancies:

                •   57 responses were in the MDA data collection tool that were not in the
                    OSD database,

                •   Text in 3 responses did not match, and

                •   15 responses were in the OSD database but were not in the MDA data
                    collection tool.

           We evaluated each of the discrepancies and determined there would be no
           significant impact on the JCSGs analysis or integrity of the data. (See Appendix
           A for additional details.) The DoD OIG Data Mining Division will be issuing a
           separate memorandum on their comparison between the MDA data and the OSD
           database.


Conclusion
           After our review, the MDA BRAC 2005 data call responses for the sites visited
           were generally supported, complete, and reasonable. In addition, the data
           collection processes generally complied with applicable internal control plans,
           and the MDA ICP properly incorporated and supplemented the OSD ICP.
           However, MDA did not fully support all responses submitted to OSD:
           29 capacity analysis responses were partially supported with documentation, and
           3 areas in 3 scenario specific data calls were partially supported with
           documentation. In addition, we were unable to determine the validity of the
           responses for 20 military value questions. After our site visits, JPAT 7 requested
           MDA to change several responses. We did not verify those changes, therefore the
           issues related to these questions may no longer be valid. We discussed the
           outstanding unsupported responses with MDA management. MDA concurred


5
    Data integrity is the condition existing when data is unchanged from its source and has not been
    accidentally or maliciously modified, altered, or destroyed.
                                                       8
with the findings. These issues should not affect the overall reliability and
integrity of the MDA BRAC 2005 process.




                                     9
Appendix A. Scope and Methodology
   We evaluated the validity, integrity, and supporting documentation of MDA
   BRAC 2005 data. The evaluation included comparing responses to supporting
   documentation and reviewing “not applicable” responses to determine whether
   they were reasonable and not default responses. Questions had either an answer
   or a “not applicable” response; a “not applicable” response was for questions that
   did not apply to a site. We evaluated whether the MDA ICP incorporated and
   supplemented the requirements of the OSD ICP; whether site data collection
   procedures were in compliance with MDA ICP procedures for collecting, storing,
   accessing, and controlling BRAC information; and whether BRAC information
   was certified for accuracy and completeness. In addition, we interviewed the
   personnel responsible for preparing and certifying the responses to the data calls.
   Capacity Analysis Data Call. MDA Headquarters received 753 capacity
   analysis data call questions from the OSD BRAC office. MDA BRAC officials
   reviewed the data call questions and determined which questions applied to the
   various MDA offices. MDA Headquarters targeted 86 questions that applied to
   the MDA. MDA BRAC officials forwarded those 86 questions, as applicable, to
   the 33 major MDA offices. We did not validate the selection process or the
   questions that were not forwarded to the sites.

   We evaluated the MDA targeted data call questions at each MDA site that we
   visited. The targeted data call questions were sent to 33 major MDA offices
   located in the continental United States. We visited six sites, including the NCR,
   Alabama (2 sites), Colorado, California, and New Mexico. The capacity analysis
   data call responses at those six sites included all 33 major MDA office locations.
   We issued six site memorandums to summarize the results of those site visits.
   The MDA offices and the capacity analysis data call questions that MDA targeted
   to the MDA offices are shown in Appendix B.

   Although we performed data validation at only 6 MDA sites, the data for those
   sites included responses from all 33 major MDA offices. MDA personnel are
   located in 11 locations that include Alabama, Alaska, Arizona, California,
   Colorado, Hawaii, Marshall Islands, Massachusetts, New Mexico, and the NCR.
   Table 1 illustrates the 11 MDA sites, including MDA Headquarters, that provided
   responses to the capacity analysis data call. We performed data validation for the
   capacity analysis data call in five locations, including NCR, Alabama, California,
   Colorado, and New Mexico. Table 1 includes the MDA’s two letter abbreviations
   which denotes individual program offices (see Appendix B for a listing of those
   offices).




                                       10
                                           Table 1. Major MDA Office Locations




                                                                                                                        **New Mexico
                                                                                                        Massachusetts
                                                        **California


                                                                       **Colorado
                      **Alabama




                                                                                             Marshall
                                              Arizona
     **NCR




                                                                                    Hawaii


                                                                                             Islands
                                  Alaska




                                                                                                                                       Other
* AB         * KI    * GM         *GM        * AS       * SS           * GM         * QS * GM           * GM            * AL           * SE
* AS         * LA    * CF         * SI                  * GM           * IC                                             * TC
* BC         * MP    * SI                               * AL           * BC
* CF         * PI    * GC                               * SE
* CT         * QS    * TC                               * QS
* DB         * RM    * TH
* DC         * SB    * SE
* DS         * SE    * BC
* DT         * SI    * IO
* GC         * SN
* GM         * SR
* HR         * TC
* IC         * TE
* IO         * TR




*Two letter office abbreviation
**For the capacity analysis data call, we visited six sites that included Alabama (2 sites), California,
Colorado, NCR, and New Mexico.

             Second Data Call. MDA Headquarters received targeted questions from the
             JCSGs. Specifically, MDA received 14 H&SA JCSG military value questions
             (1901, 1905, 1907 through 1917, and 1959); 6 H&SA JCSG supplemental
             capacity questions (4081, 4099, 4100, 4101 through 4103); 28 Technical JCSG
             questions (3000 through 3027); 10 Technical JCSG supplemental capacity
             questions (4277 through 4286); and 20 JPAT 7 questions (1400 through 1417,
             1420, 1421). MDA Headquarters reviewed the targeted data call questions and
             further targeted those questions to major MDA office sites. We did not validate
             the MDA Headquarters’ selection process. However, MDA did not comply with
             the requirement for all stand-alone facilities and host installations, which included
             leased facilities, to answer JPAT 7 and COBRA data call questions. MDA did
             request all stand-alone facilities and host installations to answer the JPAT 7 data
             call questions, however, the Alabama responses were provided by Redstone
             Arsenal, Colorado responses were provided by Schriever Air Force Base, and the
                                                   11
NCR responses were provided by Henderson Hall. We did not audit the accuracy
or the supporting documents for the Alabama, Colorado, or the NCR responses
that Redstone Arsenal, Schreiver Air Force Base, and Henderson Hall provided to
MDA. In addition, the COBRA point of contact advised MDA not to respond to
the COBRA questions even though some MDA offices were located in leased
facilities. Although this is contrary to OSD BRAC guidance, OSD obtained the
information as part of the scenario data call as applicable.

MDA Headquarters targeted the second data call questions to six sites that
included the major MDA offices located in NCR, Alabama (2 sites), California,
Colorado, and New Mexico. All responses and supporting documentation for the
second data call from the sites located outside the NCR were provided to the
MDA Headquarters, Washington, D.C. Therefore, we evaluated the responses
and supporting documentation at MDA Headquarters. The MDA second data call
questions are shown in Appendix D. We did not verify the accuracy of the
responses and supporting documentation for:

   •   H&SA JCSG military value responses for question numbers 1913 and
       1917, which were supported with memorandums for the record. We were
       unable to verify the accuracy of these responses because no additional
       supporting documentation existed. In addition, responses to question
       numbers 1907 and 1908 were not verified because we were unable to
       validate the steps taken to generate the responses.

   •   Technical JCSG military value responses from multiple MDA locations
       for question numbers 3008 through 3015, 3017, 3018, and 3023 were
       supported with memorandums for the record. We were unable to verify
       the accuracy of those responses because no additional documentation
       existed. Also, for the response to question number 3003 we selected a
       judgmental sample of 47 people, which contained 110 entries, from the
       universe of 217 people, which included 464 entries.

   •   H&SA JCSG supplemental capacity responses for question numbers 4099,
       4100, 4101, 4102, and 4103 were supported by memorandums for the
       record. We were unable to verify the accuracy of those responses because
       no additional documentation existed.
In addition, after our site visit, JPAT 7 requested MDA to update some of its
responses based upon new guidance. We did not review the supporting
documentation for the changed responses.

In addition to reviewing the second data call responses, we followed up on
outstanding issues from the capacity analysis data call. Because of time and
funding constraints, we conducted this review at the MDA Headquarters,
Washington, D.C. We evaluated the following initial capacity analysis questions
at MDA Headquarters for the following major MDA offices:


                                    12
       •   Airborne Laser System Program Office located in New Mexico:
           Edwards Air Force Base question numbers 301, 687, 690, 691, 692;
           and Kirkland Air Force Base question number 690.

       •   Ground-Based Midcourse Defense Joint Program Office located in
           Alabama: question numbers 690, 691, and 692.

       •   Joint National Integration Center located in Colorado: question
           numbers 686, 687, and 690.

       •   Major MDA Offices located in the NCR: question number 301 for
           2 of 28 major MDA offices; question number 311 for 3 of 28 major
           MDA offices; question numbers 314, 316, 318, 319, 320, 321, 322,
           323, 324, 326, 327, 328, 329 for 1 of 28 major MDA offices; question
           number 446 for 2 of 28 major MDA offices; question numbers 461 and
           462 for 1 of 28 major MDA offices; question number 690 for 28 of 28
           major MDA offices; question number 691 for 7 of 28 major MDA
           offices; and question number 692 for 2 of 28 major MDA offices.

       •   Space Tracking and Surveillance System Program Office located
           in California: question numbers 301 and 690.

       •   Terminal High Altitude Area Defense Program Office located in
           Alabama: question numbers 461, 690, 691, and 692.

We issued one site memorandum to summarize the results of the second data call
site visit. For a list of the question numbers reviewed for each location, see
Appendix D.

Scenario Specific Data Call. As of March 17, 2005, MDA Headquarters
received four scenario specific data calls from two JCSGs. Specifically, MDA
received two H&SA JCSG Scenario Specific Data Calls; H&SA-0048 and
H&SA-0049. MDA also received two Technical JCSG Scenario Specific Data
Calls; TECH-0002 and TECH-0018. We evaluated the responses and support at
the MDA Headquarters, Washington, D.C., site.
Data Integrity. The DoD OIG Data Mining Division reviewed the integrity of
the data transferred from the MDA data collection tool to the OSD database. The
17,682 responses in the MDA data collection tool were compared to the 17,640
responses in the OSD database. We evaluated the discrepancies at the MDA
Headquarters.

   •   57 responses were in the MDA data collection tool but not in the OSD
       database. 31 were COBRA responses that MDA did not respond to, 25
       were capacity analysis data call questions that OSD deleted, and one
       response was a duplicate record that did not affect the integrity of the data
       transfer.

                                    13
       •   Text in 3 responses did not match. Two updates were not sent to the
           OSD BRAC office. The omission of these two updates caused the three
           discrepancies. However, these discrepancies will not have a material
           impact on the JCSG analysis.

       •   15 responses were in the OSD database but not in the MDA data
           collection tool. 6 responses were for question number 1909 that was not
           applicable to MDA, and 9 responses were for question number 3015 for
           one MDA site that did not provide a response.

    We evaluated each of the discrepancies and determined there would be no
    significant impact on the JCSG’s analysis.

    We performed this audit from February 2004 through March 2005 in accordance
    with generally accepted government auditing standards.

    Use of Computer-Processed Data. We did not test the accuracy of the
    computer-processed data used to support answers to data call questions because
    of time constraints. Potential inaccuracies in the data could affect the results.
    However, the BRAC data were certified as accurate and complete to the best of
    the certifier’s knowledge and belief. We did not review the data collection tools
    used. The Army Audit Agency evaluated the data collection tool and identified
    no material weaknesses.

    Government Accountability Office High-Risk Areas. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Management of Federal Real Property and the DoD
    Support Infrastructure Management high-risk areas.


Management Control Program Review
    We did not review the MDA management control program because its provisions
    did not apply to the one-time data collection process. However, we evaluated the
    MDA management controls for preparing, submitting, documenting, and
    safeguarding information associated with the BRAC 2005 data calls, as directed
    by the applicable ICPs. Specifically, we reviewed the procedures that MDA used
    to develop, submit, and document data call responses. In addition, we reviewed
    the controls implemented to certify and maintain BRAC documentation in
    accordance with applicable ICPs. Internal controls were adequate as they applied
    to the audit objective (see the finding for additional details).




                                        14
Appendix B. Capacity Analysis Data Call
            Questions Reviewed
      Major MDA Offices                            Question Number
    Two Letter Designations              Answered                Not Applicable
Aegis BMD (AB)                    461, 462, 690 and 691     11, 21, 22, 145-149, 301,
                                                            302, 310, 311, 313, 314,
                                                            317, 354-356, 360, 362-
                                                            366, 371, 372, 378, 379,
                                                            381-387, and 455-457
Airborne Laser (AL) System        301, 686, 687, and 690-   4, 11, 21, 22, 145-149,
Program Office                    692                       302, 310, 311, 313, 314,
                                                            317, 354-356, 360, 362-
                                                            366, 371, 372, 378, 379,
                                                            381-387, 455-457, 461,
                                                            and 462
Advanced Systems (AS)             461, 690, and 691         301, 302, 310, 311, 313,
                                                            and 692
BM/C2 (BC)                        311, 461, 462, 690, and   11, 301, 302, 310, 313,
                                  691                       314, 317, 455-457, 466,
                                                            and 692
Cooperative Programs and Allied   311, 371, 386, 387, 461, 301, 302, 310, 313, 462,
Support (CF)                      690, and 691              and 692
Contracting (CT)                  461, 462, and 690         301, 302, 310, 311, 313,
                                                            446-448, 691, and 692
BMDS Executive Officer (DB)       446, 461, and 690-692     301, 302, 310, 311, 313,
                                                            447, 448, and 462
Director of Communications                                  301, 302, 310, 311, 313,
(DC)                                                        446-448, 461, 462, 690-
                                                            692
Deputy Director (DD)              461 and 690               301, 302, 310, 311, 313,
                                                            446-448, 462, 691, and
                                                            692
Chief of Staff (DS)               461 and 690               301, 302, 310, 311, 313,
                                                            446-448, 462, 691, and
                                                            692



                                        15
      Major MDA Offices                                       Question Number
    Two Letter Designations                         Answered                Not Applicable
Technical Director (DT)                     461 and 690                301, 302, 310, 311, 313,
                                                                       446-448, 462, 691, and
                                                                       692
Executive Director (DX)                     461 and 690                301, 302, 310, 311, 313,
                                                                       446-448, 462, 691, and
                                                                       692
General Counsel (GC)                        301, 461, and 690          170, 172, 173, 302, 310,
                                                                       311, 313, 446-448, 462,
                                                                       691, and 692
Ground-Based Midcourse                      145-149, 301, 310, 311, 11, 313, and 461
Defense (GM)                                314, 455-457, 462, 687,
                                            690-692
Workforce Management (HR) 1                 446, 461, and 690-692      301, 302, 310, 311, 313,
                                                                       316, 321, 447, 448, 462,
                                                                       478, 480-482
Joint National Integration Center           145-149, 301, 310, 314, 11, 22, 302, 311, 313,
(IC)                                        317, 354, 356, 362, 364, 355, 360, 363, 365, 366,
                                            371, 382, 385-387, 461, 372, 378, 379, 381, 383,
                                            686, 687, 690-692          384, 455, 456, 457, and
                                                                       462
Chief Information Officer (IO)              23, 24, 27, 311, 314-316, 25, 301, 302, 310, 313,
                                            318, 319, 321-329, 446, 317, 320, 447, 448, 691,
                                            461, 462, and 690          and 692
KE Interceptors (KI)                        461 and 690                11, 22, 301, 302, 310,
                                                                       311, 313, 314, 317, 455-
                                                                       457, 462, 691, and 692
Legislative Affairs (LA)                    446, 461, and 690          301, 302, 310, 311, 313,
                                                                       447, 448, 462, and 691,
                                                                       692
Producibility and Mantech (MP)              461 and 690                301, 302, 310, 311, 313,
                                                                       462, 691, and 692
Program Integration (PI)                    301, 446, 461, 462, and    302, 310, 311, 313, 447,
                                            690                        448, 691, and 692


1
    The Office of Workforce Management (HR) provided the personnel responses for all offices located in
    the National Capital Region.
                                                    16
       Major MDA Offices                             Question Number
    Two Letter Designations                Answered                Not Applicable
Safety, Quality, and Mission        301, 311, 461, 462, and   302, 310, 313, 446, 447,
Assurance (QS)                      690                       448, 691, and 692
Resource Management (RM) 2          354, 362, 371, 378, 382, 301, 302, 310, 311, 313,
                                    386, 387, 446, 461, 462, 314, 317, 326, 352, 355,
                                    464, 466, 468, 471, 690, 356, 360, 363-366, 372,
                                    and 691                   379, 381, 383, 384, 385,
                                                              447, 448, 455-457, 582,
                                                              and 692
Small Business (SB)                 446, 461, and 690         301, 302, 310, 311, 313,
                                                              447, 448, 462, 691, and
                                                              692
Systems Engineering and             311, 461, 462, 690, and   301, 302, 310, 313, 314,
Integration (SE)                    691                       317, 466, and 692
Security, Intelligence, and Special 301, 446, 461, 462, and   302, 310, 311, 313, 447,
Programs (SI)                       690                       448, 455-457, 691, and
                                                              692
BMDS Sensors (SN)                   461 and 690               11, 301, 302, 310, 311,
                                                              313, 314, 317, 455-457,
                                                              462, 691, and 692
Strategic Relations (SR)            461 and 690               11, 301, 302, 310, 311,
                                                              313, 446, 447, 448, 462,
                                                              691, and 692
Space Tracking and Surveillance 301, 461, and 690-692         22, 302, 310, 311, 313,
System (SS)                                                   314, 317, 354-356, 360,
                                                              362-366, 371, 372, 378,
                                                              379, 381-387, 455-457,
                                                              and 462
Targets and Countermeasures         301, 311, 461, and 690-   4, 11, 21, 22, 302, 310,
(TC)                                692                       313, 314, 317, and 462.




2
    Resource Management (RM) provided the facility square footage responses for all offices located in the
    National Capital Region.
                                                     17
       Major MDA Offices                           Question Number
     Two Letter Designations             Answered                Not Applicable
Test and Assessment (TE)          461, 690, and 691         4, 11, 21, 22, 172, 173,
                                                            301, 302, 310, 311, 313,
                                                            462, and 692
Terminal High Altitude Area       311, 313, 461, and 690-   4, 11, 21, 22, 301, 302,
Defense (TH)                      692                       310, 314, 317, 354-356,
                                                            360, 362-366, 371, 372,
                                                            378, 379, 381-387, 455-
                                                            457, and 462
Force Structure Integration and   461 and 690-692           301, 302, 310, 311, 313,
Deployment (TR)                                             and 462




                                        18
Appendix C. Capacity Analysis Data Call
            Immaterial Partially
            Supported Responses
   The Chief Information Office, a major MDA office in the NCR, provided partial
   support for the responses to question numbers 314, 316, 318, 324, and 329.
   Specifically, the following responses remain partially supported:

      •   80,646 square feet remain unsupported for question number 314,

      •   3 contractors remain unsupported for question number 316,

      •   6.08 terabytes of maximum data storage capacity and 4.256 terabytes of
          capacity in use remain unsupported for question number 318,

      •   1 contractor remains unsupported for question number 324, and

      •   20 users remain unsupported for question number 329.

   The System Engineering office, a major MDA office located in the NCR,
   provided partial support for the responses to question numbers 311 and 462.
   Specifically, the following responses remain partially supported:

      •   422 usable square feet remain unsupported for question number 311,

      •   1 contractor remains unsupported for question number 311, and

      •   40 contractors remain unsupported for question number 462.

   Security, Intelligence and Special Programs, a major MDA office located in the
   NCR, provided partial support for the responses to question numbers 461 and
   462. Specifically, the following responses remain partially supported:

      •   30 contractors remain unsupported for question number 461, and

      •   10 contractors remain unsupported for question number 462.

   All MDA NCR offices partially supported the responses for personnel education
   levels on question number 690 with documentation from informal surveys.




                                      19
          Seven major MDA offices 3 in the NCR provided responses to question
          number 691 for acquisition workforce function/certification levels of civilian
          detailees that were partially supported with documentation from informal surveys.

          Two major MDA offices 4 located in the NCR provided responses to question
          number 692 for military detailees that were partially supported with
          documentation from informal surveys.

          The Airborne Laser Program Office responses from Edwards Air Force Base for
          question numbers 301, 690, 691, and 692 were not supported because the unit
          manning document was not available at the time of the site visit. Although this
          document has been obtained we did not verify those responses because the
          document is located at Kirkland Air Force Base and we did not revisit that site.

          The Airborne Laser Program Office response from Kirkland Air Force Base for
          question number 690 were partially supported with documentation from informal
          surveys.

          The Space Tracking and Surveillance System Program Office provided partial
          support for responses to question numbers 301 and 690. Specifically, the
          following responses remain partially supported:

               •   the number of gross square feet was not supported by the diagram
                   provided for question number 301,

               •   contractors was partially supported by a telephone roster for question
                   number 301, and

               •   education level of Government employees was partially supported by an
                   informal survey for question number 690.

          The Joint National Integration Center did not have supporting documentation for
          the major and unique research, development, test, evaluation, and acquisition
          equipment and facilities responses for question numbers 686 and 687. Also, the
          response to question number 690 was partially supported with documentation
          from informal surveys.
          The Ground-Based Midcourse Defense Joint Program Office responses to
          question number 690, 691, and 692 were partially supported with documentation
          from informal surveys.



3
    The seven major MDA offices include Advanced Systems, Aegis BMD, BM/C2, Cooperative Programs
    and Allied Support, BMDS Executive Officer, Systems Engineering and Integration, and Targets and
    Countermeasures.
4
    The two major MDA offices are the BMDS Executive Officer and Targets and Countermeasures.
                                                   20
The Terminal High Altitude Area Defense Program Office responses to question
number 461 were from a physical count. Also, responses to question
numbers 690, 691, and 692 were partially supported with documentation from
informal surveys.




                                  21
Appendix D. Second Data Call
            Questions Reviewed
All MDA stand-alone facilities and host installations including leased facilities answered
the JPAT 7 data call questions 1400-1417, 1420, and 1421; however, the responses were
provided by Redstone Arsenal for Alabama, Schreiver Air Force Base for Colorado, and
Henderson Hall for the NCR. We did not audit the accuracy or the support for the
Alabama, Colorado, or the NCR responses provided to MDA by Redstone Arsenal,
Schreiver Air Force Base, and Henderson Hall. In addition, JPAT 7 decided to replace
JPAT 7 questions 1418 and 1419 with JPAT 7 questions 1420 and 1421.

                                                 Question Number
               Site                     Answered               Not Applicable
MDA NCR Headquarters,            1400-1417, 1420, 1421,   1901, 1909-1912, 1914,
Washington, DC                   1905, 1907, 1908, 1913, 1915, 1959, 3007, 3025,
                                 1916, 1917, 3000-3006,   and 3027
                                 3009-3012, 3016, 3017,
                                 3019-3024, 3026, 4081,
                                 4099, 4100, 4101, 4102,
                                 4103, and 4277-4282
MDA Alabama office,              1400-1417, 1420, 1421,   3007, 3025, and 3027
Terminal High Altitude Area      3000-3004, 3008-3015,
Defense Program Office           3019-3021, 3024, 3026,
(THAAD PO) and Ground-Based 4277-4279, 4283, 4284,
Midcourse Defense Joint Program and 4286
Office (GMD JPO), Huntsville,
Alabama
MDA Alaska office, Ground-       3000-3004, 3008-3015,    3007, 3025, and 3027
Based Midcourse Defense Joint    3019-3021, 3024, 4277-
Program Office (GMD JPO),        4279, and 4286
Shemya, Alaska
MDA California office, Space     3000, 3004, 3009-3015,   3007, 3025, and 3027
Tracking and Surveillance System and 4286
Program Office (SS SPO), Los
Angeles, California




                                            22
                                                 Question Number
               Site                     Answered              Not Applicable
MDA Colorado office, Joint       1400-1417, 1420, 1421,   3007, 3025, and 3027
National Integration Center      3000-3004, 3006, 3008-
(JNIC), Colorado Springs,        3015, 3018-3021, 3024,
Colorado                         4277-4279, and 4283-
                                 4286
MDA New Mexico office,           3000, and 3010-3012      3007, 3025, and 3027
Airborne Laser System Program
Office (ABL SPO), Albuquerque,
New Mexico




                                       23
Appendix E. Prior Coverage
   The following DoD OIG site memorandums were issued for the MDA BRAC
   2005, and the Army Audit Agency audit report was issued for the automated data
   collection tool used.


DoD OIG
   Site Memorandums

   DoD OIG Memorandum, “Audit on the Second Data Call Submission From the
   Missile Defense Agency Offices of the Joint National Integration Center,
   Terminal High Altitude Area Defense Program, Ground-Based Midcourse
   Defense Joint Program Office, Space Tracking and Surveillance System Program
   Office, Airborne Laser System Program Office, and the offices located in the
   National Capital Region to the Missile Defense Agency Headquarters for Base
   Realignment and Closure 2005,” February 23, 2005

   DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From the Missile Defense Agency Offices Located in the National Capital Region
   to the Missile Defense Agency Headquarters for Base Realignment and Closure
   2005,” May 12, 2004

   DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From the Airborne Laser System Program Office to the Missile Defense Agency
   Headquarters for Base Realignment and Closure 2005,” May 11, 2004

   DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From the Ground-Based Midcourse Joint Program Office to the Missile Defense
   Agency Headquarters for Base Realignment and Closure 2005,” May 6, 2004

   DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From the Joint National Integration Center to the Missile Defense Agency
   Headquarters for Base Realignment and Closure 2005,” May 3, 2004

   DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
   From the Terminal High Altitude Area Defense Program Office to the Missile
   Defense Agency Headquarters for Base Realignment and Closure 2005,” April
   30, 2004




                                     24
    DoD OIG Memorandum, “Audit on the Capacity Analysis Data Call Submission
    From the Space Tracking and Surveillance System Program Office to the Missile
    Defense Agency Headquarters for Base Realignment and Closure 2005,” April
    29, 2004


Army Audit Agency
    Army Audit Agency Memorandum No. A-2004-0184-IMT, “Review of Online
    Data Collection Tool: Process Controls,” February 20, 2004




                                      25
Appendix F. Report Distribution

Office of the Secretary of Defense
           Director, Base Realignment and Closure (Installations and Environment)
           Director, Missile Defense Agency

Non-Defense Federal Organization
           Government Accountability Office ∗




∗
    Only Government Accountability Office personnel involved in the BRAC process are to receive the
    report.

                                                    26
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Acquisition Management and Technology prepared this report. Personnel of the
   Department of Defense Office of Inspector General who contributed to the report
   are listed below.

   Deborah L. Culp
   Bruce A. Burton
   Rudolf Noordhuizen
   Mary Hoover
   Kendall Alexis
   Jacqueline Pugh
